PROVIDED to OKEECHOBEE

S&JiEES"
BY
No.

IN THE
SUPREME COURT OF THE UNITED STATES

John McKenzie. - PETITIONER
vs.

State of Florida - RESPONDENT(S)
PROOF OF SERVICE
I,

John

McKenzie.,

do swear or declare that on this date,
, 2021, as required by Supreme Court Rule 29, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND PETITION FOR A WIRT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other persons required to be
served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

fiprif S.k'

The names and addresses of those served are as follows:
Office of the Attorney General, 1515 N. Flagler Dr., Suite 900, West Palm
Beach, FL, 33401; Office of the Governor, The Capitol Pl-01, Tallahassee, FL,
32399.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on
T^jpr/'/ A
, 2021

RECEIVED
JUN 2 - 2021
^RC|m°eFcToHuERCtLEuRSK

Additional material
from this filing is
available in the
Clerk's Office.

